DESISTO LAW LLC
A T T O R N E Y S

A T

L A W

60 SHIP STREET
PROVIDENCE, RI 02903
(401) 272-4442 Ext. 212
Direct Dial: (401) 649-4299
Fax: (401) 533-9848
marc@desistolaw.com

Marc DeSisto

*Via Regular Mail and e-filing*

December 16, 2020
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Rule 37 Consent to Amicus Briefs
Caniglia v. Strom, No. 20-157

Dear Mr. Harris,
I am counsel for all respondents in this case, and a member of the Supreme Court bar. Pursuant to
Rule 37(3)(a), please allow this letter to serve as a blanket consent from the Respondents to all
amicus curiae briefs in support of either or neither party in the above cited matter. This consent
does not imply agreement or disagreement with the views or arguments contained within any such
amicus brief.
If you have any questions or comments, please do not hesitate to contact me.

Very truly yours,

Marc DeSisto, Esq.
cc: Shay Dvoretzky, Esq. via email

